      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




June 17, 2010

TO:             Carmen R. Nazario
                Assistant Secretary for Children and Families


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Title IV-E Foster Care Costs Claimed on Behalf of Delinquent
                Children in Georgia (A-04-07-03519)


Attached, for your information, is an advance copy of our final report on Title IV-E foster care
costs claimed on behalf of delinquent children in Georgia. We will issue this report to the
Georgia Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-07-03519 in all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services, Region IV
                                                                       61 Forsyth Street, S.W., Suite 3T41
                                                                       Atlanta, GA 30303




June 23, 2010

Report Number: A-04-07-03519

Mrs. B. J. Walker
Commissioner
Georgia Department of Human Services
2 Peachtree Street, NW, Suite 29-250
Atlanta, GA 30303-3142

Dear Mrs. Walker:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Title IV-E Foster Care Costs Claimed on Behalf of
Delinquent Children in Georgia. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
John Drake, Audit Manager, at (404) 562-7755 or through email at John.Drake@oig.hhs.gov. Please
refer to report number A-04-07-03519 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mrs. B. J. Walker


Direct Reply to HHS Action Official:

Mrs. Carlis V. Williams
Regional Administrator
Administration for Children and Families
Atlanta Federal Center - Suite 4M60
61 Forsyth Street, SW
Atlanta, GA 30303-8909
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF TITLE IV-E FOSTER CARE
  COSTS CLAIMED ON BEHALF OF
DELINQUENT CHILDREN IN GEORGIA




                       Daniel R. Levinson
                        Inspector General

                           June 2010
                         A-04-07-03519
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for State
foster care programs. Section 472(a) of the Act establishes Title IV-E eligibility requirements,
such as age, income, and specified judicial determinations.

For children who meet Title IV-E eligibility requirements, the Administration for Children and
Families (ACF) provides the Federal share of States’ costs, including maintenance (room and
board) costs and administrative costs. In Georgia, the Department of Human Services, Division
of Family and Children Services (the State agency), administers the Title IV-E program. In this
role, it determines Title IV-E eligibility and maintains an interagency agreement with the
Georgia Department of Juvenile Justice (DJJ). When DJJ has legal custody of Title IV-E eligible
children, it may bill the State agency for the Title IV-E portion of daily maintenance costs and
associated administrative costs. The State agency subsequently submits these costs to ACF for
Federal reimbursement.

The State agency claimed $107 million (Federal share) in Title IV-E costs during Federal fiscal
years (FY) 2005 and 2006 (October 1, 2004, through September 30, 2006). This amount
included $6,312,303 (Federal share) in maintenance and associated administrative costs that DJJ
billed on behalf of delinquent children.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for Title IV-E maintenance
payments and administrative costs on behalf of delinquent children met Federal requirements for
childcare institution eligibility, child eligibility, and allowable costs.

SUMMARY OF FINDINGS

For all 100 sampled claim-months, the State agency’s claims for Title IV-E maintenance
payments and administrative costs on behalf of delinquent children met Federal requirements for
childcare institution eligibility. However, the State agency’s claims did not meet all Federal
requirements for child eligibility and allowable costs. Specifically, the State agency claimed:

   •   2 claim-months totaling $1,065 for children who were not eligible for services because
       documentation of their permanency hearings was missing and

   •   16 claim-months totaling $8,244 for portions of maintenance payments that represented
       unallowable education costs.

Based on these sample results, we estimated that the State agency claimed unallowable
Title IV-E costs for FYs 2005 and 2006 totaling $595,779 (Federal share), including $59,805 in
maintenance payments and $535,974 in associated DJJ ($459,424) and State agency ($76,550)
administrative costs. The State agency claimed the unallowable costs because it made errors in



                                                 i
determining Title IV-E eligibility and did not ensure that the daily maintenance rates DJJ used to
bill Title IV-E contained only the costs of allowable services.

We were unable to determine the allowability of the remaining maintenance payments totaling
$664,418 and associated DJJ and State agency administrative costs totaling $5,953,064 because
the State agency was unable to demonstrate that the daily maintenance rates for Title IV-E
eligible children did not contain unallowable costs in addition to the unallowable education costs.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $595,779 for unallowable costs, including $59,805 in
       maintenance payments and $535,974 in associated administrative costs;

   •   ensure that permanency hearings are held within the specified timeframe and that
       appropriate documentation is maintained;

   •   ensure that the daily maintenance rates for Title IV-E children include only allowable
       costs; and

   •   work with ACF to resolve the allowability of maintenance payments totaling $664,418
       and associated administrative costs totaling $5,953,064.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it would work with DJJ to
settle the $595,779 in unallowable costs and with ACF to resolve the $5,953,064 in
administrative costs. The State agency did not specifically address our second and third
recommendations. The State agency’s comments are included in their entirety as Appendix F.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION ................................................................................................................ 1

          BACKGROUND ........................................................................................................... 1
              Title IV-E Foster Care Program ......................................................................... 1
              Georgia Title IV-E Foster Care Program ........................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope ................................................................................................................ 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          TITLE IV-E ELIGIBILITY ........................................................................................... 4
                Federal Requirements ........................................................................................ 4
                Costs Claimed for Ineligible Children ............................................................... 5

          ALLOWABLE COSTS ................................................................................................. 5
              Federal Requirements ........................................................................................ 5
              Unallowable Services Included in Maintenance Payments ............................... 5

          UNDOCUMENTED MAINTENANCE PAYMENT RATES ..................................... 6
              Federal Requirements ........................................................................................ 6
              Composition of Maintenance Payment Rates .................................................... 6

          RECOMMENDATIONS ............................................................................................... 6

          STATE AGENCY COMMENTS .................................................................................. 7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: METHODOLOGY FOR ESTIMATING DEPARTMENT OF JUVENILE JUSTICE
             ADMINISTRATIVE COSTS ASSOCIATED WITH UNALLOWABLE
             MAINTENANCE PAYMENTS

          D: METHODOLOGY FOR ESTIMATING THE STATE AGENCY’S PORTION OF
             ADMINISTRATIVE COSTS ASSOCIATED WITH UNALLOWABLE AND SET-
             ASIDE DEPARTMENT OF JUVENILE JUSTICE MAINTENANCE PAYMENTS



                                                                   iii
E: UNALLOWABLE EDUCATION COSTS

F: STATE AGENCY COMMENTS




                           iv
                                       INTRODUCTION

BACKGROUND

Title IV-E Foster Care Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care for children under an approved State plan. At the Federal level, the
Administration for Children and Families (ACF) administers the program and provides the
Federal share of States’ costs.

Section 472(a) of the Act establishes Title IV-E eligibility requirements, including age, income,
and specified judicial determinations. For children who meet Title IV-E eligibility requirements,
Federal funds are available to States for maintenance, administrative, and training costs:

   •   Maintenance costs include room and board, clothing, daily supervision, school supplies,
       children’s personal incidentals, liability insurance with respect to a child, and reasonable
       travel to a child’s home for visitation. States may make maintenance payments to
       licensed foster family homes and childcare institutions. Pursuant to section 472(c) of the
       Act, a childcare institution is defined as a private childcare institution or a public
       childcare institution that accommodates no more than 25 children and is licensed by the
       State. The definition excludes detention facilities, forestry camps, training schools, or
       any other facility operated primarily for the detention of children. The Federal share of
       maintenance payments is based on each State’s Federal rate for Title XIX (Medicaid)
       expenditures. During our audit period, the Federal share of Georgia’s maintenance
       payments ranged from 60.44 percent to 60.60 percent.

   •   Administrative costs include staff activities such as case management and supervision of
       children placed in foster care and, in some circumstances, children considered to be
       Title IV-E candidates; preparation for and participation in court hearings; placement of
       children; recruitment and licensing for foster homes and institutions; and rate setting. A
       proportionate share of overhead costs is also reimbursable under this category. The
       Federal share of administrative costs allocable to the Title IV-E program is 50 percent.

   •   Training costs include the training of State or local staff to perform administrative
       activities and the training of current or prospective foster care parents, as well as
       personnel of childcare institutions. The Federal share of certain training costs allocable
       to the Title IV-E program is 75 percent.

Section 475(5)(C)) of the Act requires that for a child to retain Title IV-E eligibility, he or she
must have a permanency hearing. A permanency hearing is a judicial proceeding that determines
the permanency plan for the child, including whether and when a child will be returned to his or
her parents, placed for adoption, or placed in another planned permanent living arrangement. A
permanency hearing must be held within 12 months after a child enters foster care and annually
thereafter. If a permanency hearing is not held as required, the child loses his or her Title IV-E
eligibility.



                                                1
Georgia Title IV-E Foster Care Program

The Georgia Department of Human Services, Division of Family and Children Services (the
State agency), administers the Title IV-E program and determines children’s program eligibility.

Pursuant to section 472 of the Act, the placement and care of a child eligible for Title IV-E
funding is the responsibility of the State Title IV-E agency or any other public agency with
which the State Title IV-E agency has an agreement. The State agency maintains an interagency
agreement with the Georgia Department of Juvenile Justice (DJJ) to provide care and supervision
to children whom the State’s judicial system determines to be delinquent. A delinquent child is
defined as one who has committed a crime or a delinquent act under the laws of Georgia or
another State and who is in need of treatment and rehabilitation (Official Code of Georgia
Annotated 15-11-2). A delinquent child may be eligible for Title IV-E funded services. Under
the interagency agreement, DJJ may bill the State agency for maintenance and associated
administrative costs for Title IV-E eligible children who are in licensed family, group, or
childcare facilities and are under the legal custody of DJJ or who are candidates for foster care.
The State agency subsequently submits these costs to ACF on the Title IV-E Foster Care and
Adoptive Assistance Financial Report (Federal Form ACF-IV-E-1) for Federal reimbursement.

The State agency claimed $107 million (Federal share) in Title IV-E costs during Federal fiscal
years (FY) 2005 and 2006 (October 1, 2004, through September 30, 2006). Of this amount,
$6,312,303 consisted of maintenance ($727,187) and associated administrative costs
($5,585,116) that DJJ billed for delinquent children.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for Title IV-E maintenance
payments and administrative costs on behalf of delinquent children met Federal requirements for
childcare institution eligibility, child eligibility, and allowable costs.

Scope

Our review covered $724,223 (Federal share) in Title IV-E maintenance costs that the State
agency claimed on behalf of delinquent children during FYs 2005 and 2006 and the associated
administrative costs. The $724,223 consisted of maintenance payments of $100 or more per
child per month. 1

We did not assess the State agency’s overall internal controls. We limited our review to gaining
an understanding of selected State agency controls related to paying DJJ for maintenance and
administrative costs and claiming maintenance and associated administrative costs to the
Title IV-E program.

1
  DJJ’s claim did not include any training costs applicable to Title IV-E eligible children in its custody. According
to DJJ, it never billed the State agency for training costs because DJJ could not develop an allocation methodology
acceptable to the ACF regional office.


                                                          2
We performed our fieldwork during June 2007 and from June 2008 through April 2009 at the
State agency and DJJ offices in Atlanta, Georgia.

Methodology

To accomplish our objective, we:

      •    reviewed Federal criteria related to Title IV-E claims;

      •    interviewed State agency and DJJ personnel regarding the State agency’s claims;

      •    reviewed selected contracts between DJJ and foster care facilities;

      •    obtained from DJJ a list of all Title IV-E maintenance payments that it billed to the State
           agency for the cost of delinquent children placed in foster care;

      •    reconciled maintenance payments, as reported by the State agency on the quarterly
           Federal Form ACF-IV-E-1, to the payments recorded in the State agency’s accounting
           records;

      •    created a database of 1,016 claim-months 2 by combining all FYs 2005 and 2006
           Title IV-E maintenance payments into one payment amount per child per month;

      •    selected a random sample of 100 claim-months totaling $66,533 (Federal share) in
           Title IV-E maintenance payments from our sampling frame of 1,016 claim-months
           (Appendix A) and, for each sampled claim-month:

           o reviewed the State agency’s records to determine the licensing status of the foster
             care provider,

           o reviewed the State agency’s and DJJ’s case files to determine the child’s Title IV-E
             eligibility,

           o reviewed available information pertaining to the State agency’s Title IV-E
             maintenance payment rate to determine the allowability of costs,

           o reviewed interagency billings and DJJ financial reports supporting the Federal
             reimbursement claimed, and

           o identified unallowable maintenance costs that the State agency claimed;

      •    estimated the unallowable costs claimed to Title IV-E for children in DJJ’s custody
           (Appendix B for maintenance payments and Appendix C for administrative costs); and



2
    We defined a claim-month as all maintenance payments of $100 or more for one child during a month.


                                                         3
      •   estimated the administrative costs that the State agency claimed for processing both the
          unallowable and set-aside Title IV-E claims for children in DJJ’s custody (Appendix D).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

For all 100 sampled claim-months, the State agency’s claims for Title IV-E maintenance
payments and administrative costs on behalf of delinquent children met Federal requirements for
childcare institution eligibility. However, the State agency’s claims did not meet all Federal
requirements for child eligibility and allowable costs. Specifically, the State agency claimed:

      •   2 claim-months totaling $1,065 for children who were not eligible for services because
          documentation of their permanency hearings was missing and

      •   16 claim-months totaling $8,244 for portions of maintenance payments that represented
          unallowable education costs.

Based on these sample results, we estimated that the State agency claimed unallowable
Title IV-E costs for FYs 2005 and 2006 totaling $595,779 (Federal share), including $59,805 in
maintenance payments and $535,974 in associated DJJ ($459,424) 3 and State agency ($76,550) 4
administrative costs. The State agency claimed the unallowable costs because it made errors in
determining Title IV-E eligibility and did not ensure that the daily maintenance rates DJJ used to
bill Title IV-E contained only the costs of allowable services.

We were unable to determine the allowability of the remaining maintenance payments totaling
$664,418 and associated DJJ and State agency administrative costs totaling $5,953,064 because
the State agency was unable to demonstrate that the daily maintenance rates for Title IV-E
eligible children did not contain unallowable costs in addition to the unallowable education costs.

TITLE IV-E ELIGIBILITY

Federal Requirements

Section 472(a) of the Act establishes the requirements for Title IV-E eligibility. For children
who meet Title IV-E requirements, Federal funds are available to States for maintenance
payments. The Act requires that the State agency conduct an annual permanency hearing for
each child in foster care. Section 475(5) of the Act states:


3
    See Appendix C.
4
    See Appendix D.


                                                  4
         (C) with respect to each such child, procedural safeguards will be applied, among
         other things, to assure each child in foster care under the supervision of the State
         of a permanency hearing to be held, in a family or juvenile court or another court
         (including a tribal court) of competent jurisdiction, or by an administrative body
         appointed or approved by the court, no later than 12 months after the date the
         child is considered to have entered foster care (as determined under subparagraph
         (F)) (and not less frequently than every 12 months thereafter during the
         continuation of foster care) ....

Costs Claimed for Ineligible Children

For 2 claim-months, the State agency claimed costs totaling $1,065 for children who did not
meet the permanency hearing requirements. The State agency did not provide court documents
or any additional evidence to indicate that permanency hearings were completed no later than 12
months from the date the children entered foster care. The State agency agreed that permanency
hearings were not conducted.

ALLOWABLE COSTS

Federal Requirements

Section 472(b)(2) of the Act limits maintenance payments to “only those items which are
included in the term ‘foster care maintenance payments’ (as defined in section 475(4)).”
Section 475(4)(A) of the Act states:

         The term “foster care maintenance payments” means payments to cover the cost
         of (and the cost of providing) food, clothing, shelter, daily supervision, school
         supplies, a child’s personal incidentals, liability insurance with respect to a child,
         and reasonable travel to the child’s home for visitation. In the case of institutional
         care, such term shall include the reasonable costs of administration and operation
         of such institution as are necessarily required to provide the items described in the
         preceding sentence.

Unallowable Services Included in Maintenance Payments

For 16 claim-months, the State agency claimed $16,082 for maintenance payments that included
$8,244 in unallowable education costs.

DJJ’s list of maintenance rates applicable to Title IV-E children was based on the level of care 5
that a child received at a particular childcare institution. During our audit period, DJJ provided
six levels of care. Four of these levels corresponded to two maintenance rates: one that included
an education component and one that did not. DJJ used both of these rates to bill the State
agency. However, education is not an allowable Title IV-E expense under section 475(4)(A) of

5
 DJJ assigned each child a level of care based on the type of care and supervision that the child required. The more
care and supervision that a child required, the higher the level of care to which he or she was assigned. As the level
of care increased, the rate increased.


                                                          5
the Act. As shown in Appendix E, for the 16 claim-months, $8,244 was attributable only to the
education component that DJJ identified in its rate list and was therefore unallowable.

UNDOCUMENTED MAINTENANCE PAYMENT RATES

Federal Requirements

Pursuant to 45 CFR § 74.21(b)(7), recipients of Federal funds should have financial management
systems that include cost accounting records supported by source documentation.

Composition of Maintenance Payment Rates

Although the State agency’s rate data showed that some of the Title IV-E maintenance payment
rates included an education component, the data did not specifically identify the remaining cost
components of the rates. We requested from both DJJ and the State agency information to
support the basis for the maintenance payment rates applicable during our audit period. In
response to our request, the State agency provided detailed spreadsheets that the State agency
said it had used to develop the rates. However, the spreadsheet data did not adequately support
or explain the remaining cost components of the maintenance payment rates. Thus, we requested
information to support the data shown on the spreadsheets. However, the State agency said that
because of staff turnover and a flood at one of its facilities, it was unable to provide any
supporting documentation for the spreadsheet data.

Because the State agency was unable to demonstrate that the daily maintenance rates for
Title IV-E children did not contain other unallowable costs in addition to the unallowable
education costs discussed in the previous section, we were unable to determine the allowability
of the remaining maintenance payments totaling $664,418 ($724,223 – $59,805) and associated
DJJ and State agency administrative costs totaling $5,953,064 ($5,562,033 – $459,424 +
$850,455). 6

Effective July 1, 2007, after our audit period, the State agency developed new Title IV-E
maintenance payment rates. According to the State agency, the Centers for Medicare
& Medicaid Services required it to “unbundle” its payment rates so that specific components,
such as mental health and treatment costs, could be identified. We did not review these
unbundled rates because they were developed after our audit period.

RECOMMENDATIONS

We recommend that the State agency:

      •   refund to the Federal Government $595,779 for unallowable costs, including $59,805 in
          maintenance payments and $535,974 in associated administrative costs;

      •   ensure that permanency hearings are held within the specified timeframe and that
          appropriate documentation is maintained;
6
    See Appendix D.


                                                 6
   •   ensure that the daily maintenance rates for Title IV-E children include only allowable
       costs; and

   •   work with ACF to resolve the allowability of maintenance payments totaling $664,418
       and associated administrative costs totaling $5,953,064.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that it would work with DJJ to
settle the $595,779 in unallowable costs and with ACF to resolve the $5,953,064 in
administrative costs. The State agency did not specifically address our second and third
recommendations. The State agency’s comments are included in their entirety as Appendix F.




                                               7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of paid Title IV-E maintenance claims made on behalf of delinquent
children during the period October 2004 through September 2006.

SAMPLING FRAME

The sampling frame was a database containing 1,016 claim-months totaling $724,223 for the
period October 2004 through September 2006. The 1,016 claim-months consisted of
maintenance payments of $100 or more per child per month.

SAMPLE UNIT

The sample unit was a claim-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim-months.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the dollar amount of unallowable
maintenance payments in the sampling frame. (See Appendix B.)
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                 Sample Results

                                               Number of          Value of
Frame     Value of     Sample      Value of
                                               Unallowable       Unallowable
 Size      Frame        Size       Sample
                                              Claim-Months         Costs
1,016     $724,223       100       $66,533         18              $9,309


        Estimated Value of Unallowable Costs for Fiscal Years 2005–2006
             (Limits Calculated for a 90-Percent Confidence Interval)

                       Point estimate             $94,575
                       Lower limit                 59,805
                       Upper limit                129,344
               APPENDIX C: METHODOLOGY FOR ESTIMATING
         DEPARTMENT OF JUVENILE JUSTICE ADMINISTRATIVE COSTS
         ASSOCIATED WITH UNALLOWABLE MAINTENANCE PAYMENTS

ESTIMATION METHODOLOGY

During our audit period, the State agency claimed $5,585,116 in Department of Juvenile Justice
(DJJ) administrative costs to process $727,187 in DJJ maintenance payments, or 768 percent of
the maintenance payments for delinquent children. We audited $724,223 in DJJ maintenance
payments and, using the 768-percent factor, determined that the DJJ administrative costs
associated with processing the payments were $5,562,033.

The results of our simple random sample showed that at least $59,805 (lower limit), or
8.26 percent, of the $724,223 in maintenance payments violated Federal laws and regulations.
We applied the 8.26-percent factor to the administrative costs associated with processing the
maintenance payments. We calculated that the State agency claimed at least $459,424 of the
$5,562,033 for unallowable DJJ administrative costs applicable to DJJ’s unallowable
maintenance payments.

DATA REVIEWED

DJJ provided its Title IV-E quarterly claims for maintenance payments ($727,187) and
administration costs ($5,585,116) for the period October 2004 through September 2006.
We reconciled these claims to the State’s accounting system.

FEDERAL REQUIREMENT

The administrative costs associated with processing the maintenance payments that contained
violations are not allowable. Office of Management and Budget Circular A-87, Cost Principles
for State, Local, and Indian Tribal Governments, requires that claims be developed under cost
allocation plans based on allowable costs.
   APPENDIX D: METHODOLOGY FOR ESTIMATING THE STATE AGENCY’S
  PORTION OF ADMINISTRATIVE COSTS ASSOCIATED WITH UNALLOWABLE
    AND SET-ASIDE DEPARTMENT OF JUVENILE JUSTICE MAINTENANCE
                            PAYMENTS

During our audit period, the State agency claimed $60,351,561 in total administrative costs to
process $43,015,924 in total maintenance payments for Title IV-E children.

We estimated the State agency’s portion of unallowable and set-aside administrative costs
applicable to DJJ’s unallowable and set-aside maintenance claims as follows:

                                  Total From
                                  ACF Form           Less Total
                                    IV-E-1           DJJ Billed    Adjusted Total
           Administrative          $60,351,561         $5,585,116     $54,766,445
           Maintenance               43,015,924           727,187      42,288,737
           Training                     621,572                -0-        621,572

Step 1: Calculate the State agency-only factor.

$54,766,445 / ($42,288,737 + $621,572) = 1.28 (rounded), the ratio of adjusted total
administrative costs to the sum of adjusted maintenance and training costs.

Step 2: Apply the State agency-only factor to the estimated unallowable DJJ maintenance
costs.

1.28 × $59,805 = $76,550, the State agency’s portion of administrative costs applicable to
unallowable DJJ maintenance payments.

Step 3: Apply the State agency-only factor to the estimated set-aside DJJ maintenance
costs.

1.28 × $664,418 = $850,455, the State agency’s portion of administrative costs applicable to set-
aside DJJ maintenance payments.
                        APPENDIX E: UNALLOWABLE EDUCATION COSTS



                                                                                Amount of Error
                    Daily Rate     Total Amount                                  Associated With
                       Billed       Reimbursed       Daily Rate   Difference     Education (Rate
Sample   Billable    (Includes     (Billable Days     (Without     Between     Difference × Billable
  No.     Days      Education)        × Rate)        Education)     Rates             Days)
    2       31            $37.11         $1,150.41         $16.50     $20.61         $638.91
    9       21             41.87            879.27          21.26      20.61          432.81
   10       30             41.87          1,256.10          21.26      20.61          618.30
   11       31             41.87          1,297.97          21.26      20.61          638.91
   12       18             37.11            667.98          16.50      20.61          370.98
   20       31             41.87          1,297.97          21.26      20.61          638.91
   48       12             41.87            502.44          21.26      20.61          247.32
   50        3             41.87            125.61          21.26      20.61           61.83
   64       27             41.87          1,130.49          21.26      20.61          556.47
   71       29             41.87          1,214.23          21.26      20.61          597.69
   73       30             41.87          1,256.10          21.26      20.61          618.30
   78       24             41.87          1,004.88          21.26      20.61          494.64
   82       30             37.11          1,113.30          16.50      20.61          618.30
   83       31             37.11          1,150.41          16.50      20.61          638.91
   95       30             37.11          1,113.30          16.50      20.61          618.30
  100       22             41.87            921.14          21.26      20.61          453.42
         Total                          $16,081.60                                 $8,244.00
     i                ,     ~.!
                            i ,:
                                            III
                                             ~    .
                                                      ~O!Ji!
                                                       ,; LJ Il
                                                             ~~
     !
     ;                I     -II"
                            • • lil;1    !.I-t I!
                                 •• ,.I l-li
                            ill! II!il!l-I'!
                                               "
                                               II                         I
"
                      ,i f.~~ ~ !~J lf ~ ~~ gl                            i
I
u
                      }
                         ih!  li;!lHjil
                            1~I'l !ji,
                            !~~

                                            i'
                                      ! lll,jl
                                  i .~~ gl=~ ~
                                                             II~
                                                                          •,
~
~
                            S5~!
                            I
                                            ~·i~~ii~:~
                             i ' 11"··!l!;ll '.
                                                             ~8           i      !
                                                                                 1
                             z:1 i ~1~~3~ il i~                           J.'!
~
t;             I
               •
                                 !lI!'I,hil
                            Ill! H1u
                            _~ .. 8 ~
                                             q
                                        ~~tj i!i~                         !!
                                                                                 1, 

•              ~~.
                            illl 1"111 1'1;1] ~i
~
               'I'          f'h n _ lh]~. "                               II
1:
~
               j:!          II!!I! iil!i1!~'!] l                          11
              Illil           ~%        ~   ~ ~JI~~-
                                             , - " I 'j
                                                         ~b,
                                                                          I!
         ••
         "
         •
         I
              ~IJi~
              ili!1
                          ! il!l! j!'1111-1!11 Ii
                          l !Iill 11!III!.lll !.I IJ;iH "
                                                                   _---.,1. H
